CERTIFICATE OF SERVICE
NO. TBD
State of Oklahoma,
Petitioner,
v.
Jeffery Arch Jones,
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
OKLAHOMA V. JONES PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies
of the same by USPS Priority mail, prepaid for delivery to the following address.
Danny Joseph
Nicollette Brandt
General Appeals Division
Oklahoma Indigent Defense System
P.O. Box 926
Norman, OK 73070
danny.joseph@oids.ok.gov
nicollette.brandt@oids.ok.gov
Counsel for Jeffery Arch Jones

Lucas DeDeus

September 3, 2021
SCP Tracking: Cleveland-Office of the Oklahoma Attorney General-Cover White

